                                        July 31, 2000


 MEMORANDUM TO:                        The File

 FROM:

 THROUGH:

 SUBJECT:                              Closeout Case 1-99060021




a progress report revealed the subject shifted the $9,000 to personal sqlary. In addition,
the subject's original proposal included physical experiments along with computer
simulations of the more theoretical'aspects of the research project. However, according
to the progress report, the subject did not conduct any physical experiments and
concentrated solely on the computer simulations.

        The Office of Inspector General opened an investigation to consider these
allegations. On Jun
summaries from the
1999, I requested all



response from the s
involved writing and testing code for applying trajectory methods to organic
isomerizations, a project beyond the capabilities of an undergraduate student,
"[tlherefore, the money originally budgeted for undergraduate salary was reallocated to
other categories." In addition, the subject defended against the allegation of a significant
change in project scope by stating "the particular means by which these reactions were
investigated (experiment or computation) seemed less important than the fact that we did
investigate them."




personnel salary. These auditors found no improprieties in any expenditures (including
personnel salary) submitted by the subject. The shifting of the $9,000 from the
undergraduate student salary to the subject was completely within acceptable boundaries.
In addition, I believe the subject offered a satisfactory explanation to the allegation of a
significant change in project scope. Accordingly, this criminal investigation should be
closed, with no further action by this office.
